APPENDIX LIST
1. Michigan Supreme Court decision, case 161638, December 22, 2020
2. Michigan Court of Appeals decision, case 346921, April 23, 2020
3. Saginaw County Circuit Court decision, 18-037070-CH-5, Nov. 2, 2018
4. Saginaw County Cir. Court dec. denying reconsideration, December 5, 2018
5. Amended Exemptions December 2, 2014 (Docket 242), case 13-21977-dob
6. Trustee Objections (Docket 258 & 270) To Debtor’s Amended Exemptions
Docket 252 & 261. No specific FRBP 4003 objections to Fish In Pond, Crop
Profits, Or Fence & Fence Items, case 13-21977
7. Exemption Order Docket 486, February 12, 2016, regarding grant of
exemptions Fish In Pond, Fence & Fence Items, Paragraph H right to exceed
statutory limits for (d)(3)
8. Opinion & Order Denying Trustee’s Motion For Turnover (Docket 306),
Dockets 528/529), August 3, 2016
9. Amended Exemption Schedule Docket 608, Page 12 of 22, March 1, 2017
FMV approximately 20 acres perennial pasture and perennial hay crop
10. Trustee’s Financial Report Docket 329, April 23, 2015, Pages 1 & 2
Line 1 real estate, Line 21 crop profit a prendre
11. Trustee’s Financial Report Docket 515, April 26, 2016 (post-real estate sale)
Pages 1 and 2,' Line 1 real estate fully-administered, Line 21 crop profit
active
12. Quitclaim Deed, August 5, 2015, and Purchase Agreement, June 1, 2015.
13. Affidavit Chapter 7 Trustee Corcoran, August 21, 2018.
14. Affidavit Michael B. White, October 18, 2018
15. Order (Docket 887), Sept. 19, 2019, Clarifying & Correcting Orders (Docket
824 & 880). Michael White’s exemption are valid.

29

APPENDIX

Item 1

Michigan Supreme Court Decision, case 161638

Order

Michigan Supreme Court
Lansing, Michigan

December 22, 2020

Bridget M. McCormack,
ChiefJustice

161638

David F. Viviano,
ChiefJustice Pro Tern
Stephen J. Markman
Brian K. Zahra
Richard H. Bernstein
Elizabeth T. Clement
Megan K. Cavanagh,
Justices

MICHAEL WHITE
Plaintiff-Appellant,
'5

v
DONALD KNAPP, JR., and KORAL KNAPP,
Defendants-Appellees.

SC: 161638
COA: 346921
Saginaw CC: 18-037070-CH

On order of the Court, the application for leave to appeal the April 23, 2020
judgment of the Court of Appeals is considered, and it is DENIED, because we are not
persuaded that the questions presented should be reviewed by this Court.

j

%
\ es

ft

#
$

I, Larry S. Royster, Clerk of the Michigan Supreme Court, certify that the
foregoing is a true and complete copy of the order entered at the direction of the Court.
December 22,2020

pl214

Clerk

If this opinion indicates that it is “FOR PUBLICATION, ” it is subject to
revision untilfinal publication in the Michigan Appeals Reports.

STATE OF MICHIGAN
COURT OF APPEALS

UNPUBLISHED
April 23, 2020

MICHAEL WHITE,
Plaintiff-Appellant,
v
DONALD KNAPP, JR., and KORAL KNAPP,

No. 346921
Saginaw Circuit Court
LC No. 18-037070-CH

Defendants-Appellees.

Before: Borrello, P.J., and O’Brien and Cameron, JJ.
Per Curiam.
Plaintiff Michael White, proceeding in propria persona, appeals the trial court’s order
granting summary disposition in favor of defendants, Donald Knapp, Jr., and Koral Knapp.1 We
affirm.
I. FACTS AND PROCEEDINGS
In 1990, White purchased real property located on Block Road in Birch Run, Michigan.2
In 2013, White filed for Chapter 11 bankruptcy, which was later converted to a Chapter 7
bankruptcy proceeding. In March 2015, the bankruptcy court ordered the bankruptcy trustee to
sell the Block Road property. On June 1, 2015, the bankruptcy trustee entered into a purchase
agreement to sell the property to the Knapps, “together with all improvements and appurtenances,
if any, now on the premises.” On June 25,2015, the bankruptcy court confirmed the sale pursuant

i

White filed this appeal individually and as personal representative of the Estate of Darla K. White.
This Court dismissed the appeal “as to appellant in his capacity as personal representative of the
Estate of Darla K. White,” but allowed the appeal to proceed “as to appellant in his individual
capacity.” White v Knapp, unpublished order of the Court of Appeals, entered January 29, 2019
(Docket No. 346921). Consequently, this opinion will not reference the Estate because it is not a
party to this appeal.
2 White also owned another piece of real property on Block Road. This appeal only concerns the
property located at 11085 Block Road.
-1-

to the offer to purchase, and the bankruptcy trustee executed a deed conveying the property to the
Knapps.
White appealed the bankruptcy court’s order confirming the sale of the Block Road
property. The federal district court dismissed the appeal as moot pursuant to 11 USC 363(m),
because White did not obtain a stay of the property sale pending appeal and because he failed to
establish that the sale was not made in good faith. In re White, unpublished order of the United
States District Court for the Eastern District of Michigan, issued March 10, 2016 (Docket No. 15cv-12354). Thereafter, the Sixth Circuit Court of Appeals affirmed the district court’s order, In re
White, unpublished order of the United States Sixth Circuit Court of Appeals, entered March 31,
2017 (Docket Nos. 16-1426/1427), and the United States Supreme Court denied White’s petition
US
; 138 S Ct 663; 199 L Ed 2d 534 (2018).
for a writ of certiorari, White v Corcoran,
In July 2018, White filed an action against the Knapps in state circuit court, asserting
property rights to a perennial pasture crop, a perennial hay crop, fencing around the crop areas,
and fish in a pond on the Block Road property. In lieu of answering the complaint, the Knapps
moved for summary disposition. The Knapps argued, in relevant part, that summary disposition
was proper under MCR 2.116(C)(10) because the undisputed evidence established that White did
not have a property interest in the crops, fencing, and fish that were located on the Block Road
property. White opposed the motion. After hearing oral arguments, the trial court granted the
Knapps’ motion in a November 2,2018 order. White filed a motion for reconsideration of the trial
court’s order, which was denied. This appeal followed.
II. ANALYSIS
White argues that the trial court erred by granting summary disposition in favor of the
Knapps because the record evidence supports that White hacfa property interest in the crops,
fencing, and fish. We disagree.
We review de novo a trial court’s decision on a motion for summary disposition. Johnson
v Vanderkooi, 502 Mich 751, 761; 918 NW2d 785 (2018). Summary disposition is appropriate
under MCR 2.116(C)(10) if there is no genuine issue of material fact and the moving party is
entitled to judgment as a matter of law. Latham v Barton Malow Co, 480 Mich 105, 111; 746
NW2d 868 (2008). In reviewing a grant of summary disposition under MCR 2.116(C)(10), this
Court considers the pleadings, admissions, and other evidence submitted by the parties in the light
most favorable to the nonmoving party. Sallie v Fifth Third Bank, 297 Mich App 115, 117-118;
824 NW2d 238 (2012) (quotation marks and citation omitted).
In this case, White argues that the crops, fencing, and fish in the pond at the Block Road
property were not part of the bankruptcy estate and therefore were not transferred to the Knapps
pursuant to the trustee’s deed. White argues that he retained a legal interest in the property because
he claimed statutory exemptions and because the trustee abandoned the bankruptcy estate’s interest
in the property.
The Bankruptcy Code provides that the commencement of a bankruptcy case “creates an
estate” comprising “all legal or equitable interests of the debtor in property as of the
commencement of the case.” 11 USC 541(a)(1). When a debtor claims a valid statutory

-2-

exemption, the exempted property is “withdrawn from the estate (and hence from the creditors)”
and returned to the debtor. Owen v Owen, 500 US 305, 308; 111 S Ct 1833; 114 L Ed 2d 350
(1991). In contrast,
[abandonment is the method used by the trustee to relieve the estate of “any
property ... that is burdensome to the estate or that is of inconsequential value and
benefit to the estate.” [11 USC 554.] The trustee may refuse to abandon property
that has value to the estate, but if the debtor is entitled by statute to an exemption
in it, he may claim it without abandonment by the trustee.” [Szyszlo v Akowitz, 296
Mich App 40, 49; 818 NW2d 424 (2012), quoting Wissman v Pittsburgh Nat'l
Bank, 942 F2d 867, 870 (CA 4, 1991).]
The record does not support White’s claim that the property was removed from the
bankruptcy estate by exemption and/or abandonment on the part of the bankruptcy trustee. The
trial court ordered the trustee to sell the Block Road property. On August 5, 2015, the Block Road
property, which contained the crops, fencing, and fish, was transferred to the Knapps via a
quitclaim deed. On February 12, 2016, the bankruptcy court issued an order in relation to White’s
December 23, 2014 amended claim of exemptions. The bankruptcy court held that White was
entitled to certain exemptions under 11 USC 522(d) for property that is unrelated to this appeal,
and the court specifically held that White was not entitled to an exemption “as to the hay.” The
February 12,2016 order further held that “to the extent property ... is owned by a third party or a
non-debtor entity, the property shall be administered by the trustee.” On December 19, 2016, the
bankruptcy court approved White’s request for abandonment of various assets that remained in the
bankruptcy estate, but the crops, fencing, and fish were listed in the order. Rather, in the December
2016 order, the bankruptcy court explicitly held that the Block Road property had already been
sold and was “not abandoned and [would] continue to be administered by the Trustee.” On July
31, 2018, the bankruptcy court issued another order, which denied White’s request for various
exemptions under 11 USC 522(d), including any exemption “for hay, crops, and pasture” on the
Block Road property. Consequently, the record does not support that the crops, fencing, and fish
were abandoned or excluded from the bankruptcy estate.
Additionally, we conclude that White’s argument that the crops, fencing, and fish were not
transferred to the Knapps is not supported by the plain language of the bankruptcy court’s June 25,
2015 order and the trustee’s deed. Specifically, the bankruptcy court’s June 25, 2015 order
confirmed the sale of the Block Road property to the Knapps “pursuant to the Offer to Purchase,”
which specifically encompassed “all improvements and appurtenances” on the property.
Thereafter, the trustee’s deed conveyed the property to the Knapps “pursuant to the [June 25,2015]
Order Confirming Sale of Real Estate . . . .” Although White argues that he acquired profit a
prendre rights with respect to the crops, fencing, and fish after the property was conveyed to the
Knapps, he entirely fails to explain or rationalize this argument or provide supporting evidence.
Indeed, there is no evidence in the record that the parties agreed that White would retain rights in
any attributes of the subject property, and the bankruptcy court expressly denied White’s request

-3-

for “any exemption for hay, crops, and pasture” at the Block Road property.3 Consequently,
because the undisputed record evidence supports that White did not have a property interest in the
crops, fencing, and fish on the Block Road property, the trial court did not err by granting summary
disposition in favor of the Knapps.
Affirmed.

/s/ Stephen L. Borrello
/s/ Colleen A. O’Brien
/s/ Thomas C. Cameron

3 “A profit a prendre is the right to acquire, by severance or removal from another’s land,
something previously constituting part of the land.” Hubscher & Son, Inc v Storey, 228 Mich App
478, 483; 578 NW2d 701 (1998). “Interests in land are usually created or transferred only by act
or operation of law or by written deed of conveyance.” Evans v Holloway Sand and Gravel, Inc,
106 Mich App 70, 79; 308 NW2d 440 (1981).

-4-

APPENDIX

Item 3

Saginaw County Circuit Court Decision, case 18-037070-CH-5

STATE OF MICHIGAN
IN THE CIRCUIT COURT FOR THE COUNTY OF SAGINAW
MICHAEL WHITE, Individual, and
MICHAEL WHITE, as Personal Representative
of the ESTATE OF DARLA K. WHITE,
deceased,
Plaintiff,
V
DONALD KNAPP, JR. and
KORAL KNAPP,
Defendants.

File No. 18-037070-CH-5
Hon. Darnell Jackson

Michael White
Plaintiff in Pro Per
11255 Block Road
Birch Run, MI 48415
David J. Fisher (P23347)
Smith Bovill, P.C.
Attorney for Defendants
200 St. Andrews Road
Saginaw, MI 48638
OPINION AND ORDER GRANTING DEFENDANTS’
MOTION FOR SUMMARY DISPOSITION
At a session of said Court held in the Courthouse located in the City and County of
Saginaw, State of Michigan, on this 7
day of
—* 2018.
PRESENT:

THE HONORABLE DARNELL JACKSON, CIRCUIT JUDGE.

Introduction
I.
This cause is currently before the Court on Defendants’ Motion for Summary
Disposition. After having heard the oral arguments of Plaintiff and Defense counsel in open
court, the Court will grant summary disposition in favor of Defendants pursuant to MCR
2.116(C)(4)&(C)( 10).

II.
Background
Plaintiff Michael B. White1 and his wife Darla K. White2 filed a Chapter 11 bankruptcy
proceeding on July 30, 2013 which was subsequently converted to a Chapter 7 proceeding on or
about August 22, 2014. The Chapter 7 case is still pending before the Hon. Daniel S. Opperman
of the United States Bankruptcy Court, Eastern District of Michigan, Northern Division (“the
bankruptcy court”). (See Defendants’ Exhibit 1). After conversion, the bankruptcy court
appointed Collene K. Corcoran (“Trustee Corcoran”) as Chapter 7 Trustee to administer and
liquidate the bankruptcy estate.
Pursuant to a March 16, 2015 Order Allowing Sale of Real and Personal Property, the
bankruptcy court authorized Trustee Corcoran to sell at auction Plaintiffs real property located
at 11085 Block Road in Birch Run (“the subject real estate”) (Defendants’ Exhibit 2 at 3-4). At
an auction held on May 25, 2015, Donald Knapp, Jr. and Koral Knapp, husband and wife
(“Defendants”), were the highest bidders for the subject real estate. On June 1, 2015, Defendants
and Trustee Corcoran executed a purchase agreement concerning the premises which states, in
pertinent part:
1.
AGREEMENT TO SELL: The undersigned Purchaser hereby agrees to
purchase and the Seller agrees to sell the following land. . ., together with all
improvements and appurtenances, if any, now on the premises...”
(Plaintiffs Exhibit 11) (Emphasis Added).
On June 25, 2015, the bankruptcy court entered an order confirming the sale of the
subject real estate to Defendants and requiring Plaintiff to remove himself and all personal
property from the premises prior to closing. (Defendants’ Exhibit 3). On August 5, 2015, Trustee
Corcoran executed a Trustee’s Deed conveying the subject real estate to Defendants in exchange
for valuable consideration paid in the amount of $155,137. (Defendants Exhibit 6). Plaintiff
appealed the bankruptcy court’s order confirming the sale of the subject real estate all the way to
the United States Supreme Court which denied certiorari on January 8, 2018. (Plaintiffs
Complaint at f 50).
The bankruptcy court also issued various orders concerning property exemptions that
Plaintiff claimed under Title 11 of the U.S. Code (“the bankruptcy code ). In an order dated
February 12, 2016, the bankruptcy court addressed Plaintiffs claim that hay owned at the time
| 1 Although Michael White and the Estate of Darla White are both listed in the Complaint as
“Plaintiffs,” for convenience the singular “Plaintiff’ will be used throughout this opinion.
2 According to the Complaint, Plaintiffs wife Darla White passed away on January 1, 2015.
2

he filed bankruptcy was exempt from the bankruptcy estate under 11 USC 522(d)(3).3 Although
Plaintiff claimed that the hay was primarily used for personal, family or household use, the
bankruptcy court disagreed, noting that “[t]his asset was sold by the debtor while the debtor was
the de facto trustee operating as debtor in possession, and was not therefore held for personal,
family or household use.” (Defendants’ Exhibit 8 at 3). Therefore, the bankruptcy court ruled
that “the exemption is allowed as to other household goods in the amount claimed, but not as to
the hay[.]” (Defendants’ Exhibit 8 at 3).
In a subsequent order dated December 19, 2016, the bankruptcy court ordered that certain
additional items in the bankruptcy estate were abandoned to Plaintiff. The abandoned items listed
in the December 19, 2016 order did not include any interest in the subject real estate that was
sold to Defendants nor any interest in personal property located on the subject real estate. (See
Defendants’ Exhibit 7)..
In another order dated July 31, 2018, the bankruptcy court denied additional exemptions
claimed by Plaintiff and, specifically, denied “the exemption taken for hay, crops, and pasture” at
the subject real estate. (See Defendants’ Exhibit 9b). Plaintiff filed a Motion for Clarification of
the July 31, 2018 order, but that Motion was subsequently stricken by the bankruptcy court due
to Plaintiffs failure to file a proposed order with the Motion.
On July 27, 2018, Plaintiff filed the instant Complaint against Defendants alleging that
they have wrongfully destroyed and denied him access to personal property items that he owns
on the subject real estate. Specifically, Plaintiff alleges that within the legal description of the
subject real estate, he owns fish in the pond, fence and fence items, approximately 20 acres of
perennial pasture crop, and perennial hay crop. (See Plaintiffs Brief at 2). The gravamen of
Plaintiffs claim in this case is that Defendants destroyed the hay/pasture on the subject real
estate, have permitted the northeast quadrant of the premises to become overgrown with brush,
have removed the fence around the hay/pasture land, and fish in the pond. (See Plaintiffs
Complaint at
62-65; see also Defendants’ Motion for Summary Disposition at ^17; see also
Plaintiffs Response to Defendants’ Motion for Summary Disposition at 1|17). Thus, Plaintiff
seeks an order of this Court granting him the following relief: (1) that Defendants be required to
allow him to enter the subject real estate in order to access his alleged personal property items,
and (2) that Defendants be ordered to pay him money damages as compensation for their alleged
destruction of the hay field on the subject real estate and the fence surrounding that field.
(Plaintiffs Complaint at ffi|68-72).
3 The exemption set forth in 11 USC 522(d)(3) pertains to: “[t]he debtor’s interest, not to exceed
$400 in value in any particular item or $8,000 in aggregate value, in household furnishings,
household goods, wearing apparel, appliances, books, animals, crops, or musical instruments,
that are held primarily for the personal, family, or household use of the debtor or a dependent of
the debtor.” 3

Ili.
Standards of Review
Defendants now move for summary disposition, arguing in part, that they are entitled to
dismissal of Plaintiffs Complaint under MCR 2.116(C)(4) and (C)(10)4. Summary disposition
under subrule (C)(4) is warranted when the Court “lacks jurisdiction of the subject matter.” MCR
2.116(C)(4). When deciding a motion for summary disposition under subrule (C)(4), the trial
court considers the affidavits, together with the pleadings, depositions, admissions and other
documentary evidence to determine whether they demonstrate a lack of subject matter
jurisdiction. Packowski v United Food & Commercial Workers Local 951, 289 Mich App 132,
138-139; 796 NW2d 94 (2010).
A motion for summary disposition pursuant to MCR 2.116(C)(10) examines the factual
support for a claim. Maiden v Rozwood, 461 Mich 109, 119; 597 NW2d 817 (1999). In deciding
such a motion, a court must consider the pleadings, depositions, affidavits, admissions, and other
documentary evidence in accordance with MCR 2.116(G)(5), in the light most favorable to the
party opposing the motion. Id. at 119-120. In addition, the trial court should consider only the
substantively admissible evidence actually proffered in opposition to the motion. Id. at 121. A
mere possibility or promise that the claim might be supported by evidence produced at trial is
insufficient. Id. Although the Court should be liberal in finding a genuine issue of material fact,
summary disposition is appropriate when the party opposing the motion fails to provide evidence
to establish a material factual dispute. Id. at 120.
IV.
Discussion
Circuit courts have original jurisdiction to hear and determine all civil cases, except
where exclusive jurisdiction is given in the constitution or statute to another court. MCL
600.605. As discussed below, Plaintiffs Complaint in this action raises issues that fall within the
exclusive jurisdiction of the bankruptcy court.
The U.S. bankruptcy courts are specialized courts, created by Congress to administer
cases under the bankruptcy code. A bankruptcy court is a unit of the U.S. district court. 28 USC
§ 151. As such, bankruptcy courts derive their jurisdiction through the U.S. district courts. 28
USC § 1334. In bankruptcy cases, the U.S. district court has exclusive jurisdiction over all
property of the debtor as of the commencement of the bankruptcy case and all property of the
bankruptcy estate. 28 USC § 1334(e)(1).
Pursuant to the authority conferred upon them, bankruptcy courts may hear and
determine all cases and core proceedings that arise under the bankruptcy code. See 28 USC
§ 157(b)(1). “Core proceedings” include “matters concerning the administration of the estate” and
4 The Court finds that Defendants are entitled to summary disposition pursuant to MCR
2.116(C)(4) and (C)(10), making it unnecessary to address Defendants’ additional arguments
under subrules (C)(5),(C)(6),(C)(7) and (C)(8).
4

“allowance or disallowance claims against the estate or exemptions from property of the
estate[.]” 28 USC § 157(b)(2)(A)&(B). .
Here, the bankruptcy court exercised its exclusive jurisdiction over Plaintiff s ownership
interest in the subject real estate by authorizing Trustee Corcoran to sell it at auction. Pursuant to
the authority conferred upon her by the bankruptcy court, on June 1, 2015, Trustee Corcoran
entered into a purchase agreement to sell the subject real estate to Defendants (the highest
bidders at auction) together with all “improvements and appurtenances[.]” The terms of that sale
were later confirmed by the bankruptcy court in an order dated June 25, 2015.
The personal property items that Plaintiff now claims an ownership interest in namely,
fish in the pond, fence and fence items, approximately 20 acres of perennial pasture crop, and
perennial hay crop are “improvements5” and/or “appurtenances6” to the subject real estate and
were sold to Defendants pursuant to the terms of the June 1, 2015 purchase agreement between
Trustee Corcoran and Defendants. Thus, the bankruptcy court’s subsequent order confirming the
sale of the subject real estate to Defendants encompassed the alleged personal property items that
Plaintiff now claims to own.
Plaintiff appealed the bankruptcy court’s order confirming the sale of the subject real
estate to the U.S. Supreme Court but was unsuccessful. This Court must give full faith and credit
to the bankruptcy court’s order confirming the sale of the subject real estate. See Real Estate
Exch Corp v Muskegon Co Drain Comm’r, 304 Mich 596, 610; 8 NW2d 652 (1943), see also
Fremont Co-Op v Lipman, 226 Mich 387, 390; 197 NW 544 (1924). Accordingly, because this
Court lacks jurisdiction to grant Plaintiff relief from the bankruptcy court s order confirming the
sale of the subject real estate, Defendants are entitled to summary disposition in their favor
pursuant to MCR 2.116(C)(4).
In his response to Defendants’ Motion, Plaintiff contends that this Court does have
jurisdiction over the personal property items outlined in his Complaint because the bankruptcy
court has ruled that these items are exempt from the bankruptcy estate or otherwise abandoned to
Plaintiff as the debtor. When a debtor claims a valid exemption under the bankruptcy code, the
exempted property is retained by the debtor and does not become part of the bankruptcy estate.
Taylor v Freeland & Kronz, 503 US 638, 642 (1992). Similarly, when property of the debtor is
formally abandoned as an asset of the bankruptcy estate, the abandoned property reverts back to

5 An “improvement” is defined as “an addition to real property, whether permanent or not; esp.,
one that increases its value or utility or that enhances its appearance.” Black’s Law Dictionary
(7th ed).
6 An “appurtenance” is “[something that belongs or is attached to something else <the garden is
an appurtenance to the land>.” Black’s Law Dictionary (7 ed).
5

the debtor such that the debtor’s rights to the property are treated as if no bankruptcy petition
was filed. See Kane v Nat 7 Union Fire Ins, 535 F3d 380, 385 (CA 5, 2008).
In the instant case, the proffered evidence does not support Plaintiffs assertion that he
owns the personal property items at issue by virtue of exemption and/or abandonment orders
entered by the bankruptcy court. As discussed above, the bankruptcy court’s order confirming
the sale of the subject real estate encompassed “all improvement and appurtenances” on the land
which would include all of the personal property that Plaintiff now claims as exempt from or
abandoned by the bankruptcy estate. Further, Plaintiff has not provided the Court with any order
of the bankruptcy court determining that the specific property items that he claims in the instant
lawsuit were exempt from and/or abandoned by the bankruptcy estate. Conversely, the
documentary evidence submitted by Defendants in support of their Motion establishes that the
bankruptcy court has entered orders specifically denying Plaintiffs claimed exemptions for hay,
crops, and pasture on the subject real estate. (See Defendants’ Exhibit 8 & Defendants’ Exhibit
9b). The evidence submitted by Defendants further establishes that the property formally
abandoned by the bankruptcy court to Plaintiff did not include any interest in the subject real
estate that was sold to Defendants nor any interest in personal property located on the subject
real estate. (See Defendants’ Exhibit 7). Thus, the evidence submitted, even when viewed in a
light most favorable to the non-moving Plaintiff, fails to establish a genuine issue of material fact
to support Plaintiffs claim that he retained an ownership interest in the personal property items
claimed in his instant Complaint by virtue of abandonment or exemption orders issued by the
bankruptcy court. Accordingly, the Court will also grant summary disposition in favor of
Defendants pursuant to MCR 2.116(C)( 10).
Finally, in their Motion, Defendants have also requested that the Court enter an order
which (1) enjoins Plaintiff from pursuing any further claims pertaining to the subject real estate,
including any personal property located thereon, and (2) imposes monetary sanctions against
Plaintiff for filing this action. Defendants’ request for injunctive relief against Plaintiff is denied
for the reason that Defendants have not cited any statute, court rule, or case law that would
support their request for such relief. National Waterworks, Inc v International Fidelity & Surety,
Ltd, 275 Mich App 256, 265; 739 NW2d 121 (2007) (“A party may not merely announce a
position and leave it to this Court to discover and rationalize the basis for the claim.”) Further,
while Defendants have cited MCR 2.114 in support of their request for monetary sanctions, the
Court declines to impose sanctions against Plaintiff at this time. See People v Herrera, 204 Mich
App 333, 339; 514 NW2d 543 (1994) (noting that pro se litigants are generally held to a less
stringent standard when determining if sanctions are appropriate). However, the Court will
consider imposing sanctions against Plaintiff in the future if he files additional suits against
Defendants in an effort to relitigate claims that have already been decided against him by the
bankruptcy court or this Court.

6
i

NOW, THEREFORE, IT IS HEREBY ORDERED that Defendants’ Motion for
Summary Disposition is GRANTED and Plaintiffs’ Complaint is dismissed with prejudice;
IT IS FURTHER ORDERED that pursuant to MCR 2.602(A)(3), this order resolves the
last pending claim and closes this case.

DARNELL JACKSON
CIRCUIT JUDGE

CERTIFICATE OF MAILING
I certify that on this date I mailed with first class postage fully paid a true copy of the
foregoing on all parties and/or their attorneys of record at their addresses as shown by the records
of the Court.

n/02/ig
Deputy-Cllerk

Date of Mailing

7
!

APPENDIX

Item 4

Saginaw County Circuit Court
Order Denying Reconsideration
case 18-037070-CH-5

STATE OF MICHIGAN
IN THE CIRCUIT COURT FOR THE COUNTY OF SAGINAW

MICHAEL WHITE,
Plaintiff,
Case No. 18-037070-CH
Hon. Darnell Jackson

-vsDONALD KNAPP, JR and
KORAL KNAPP,
Defendants.
MICHAEL WHITE
Plaintiff in Pro Per
11255 Block Road
Birch Run, MI 48415

A TRUE COPY
Michael J. Hanley, Clerk

DAVID J. FISHER (P23347)
Smith Bovill, P.C.
Attorney for Defendant
200 Saint Andrews Rd.
Saginaw, MI 48638

OPINION AND ORDER DENYING PLAINTIFF’S MOTION FOR
RECONSIDERATION
AT A SESSION OF SAID COURT HELD IN THE COURTHOUSE IN THE CITY
AND COUNTY OF SAGINAW, STATE OF MICHIGAN, ON THIS 3th DAY OF
DECEMBER, 2018.
PRESENT: THE HONORABLE DARNELL JACKSON, CIRCUIT JUDGE.
This cause is currently before the court on Plaintiffs November 19, 2018 Motion for
Reconsideration of the Court’s November 2, 2018 Opinion and Order Granting Motion of

Defendant for Summary Disposition.” For the reasons stated below, Plaintiff s Motion for
Reconsideration is DENIED.
A Motion for reconsideration may be filed by a moving party following the decision of a
motion by the court. MCR 2119(F)(1). Generally, a motion for reconsideration which merely
presents the same issues ruled on by the court, either expressly or by implication, will not be
granted. Churchman v. Rickerson, 240 Mich App 223, 233; 611 NW2d 333 (2000). Rather, the
moving party must demonstrate a palpable error by which the court and the parties have been
misled and show that a different disposition of the motion must result from correction of the
error. MCR 2.119(F)(3). “[T]he ‘palpable error’ requirement of MCR 2.119(F)(3) merely
provides guidance to the trial court in deciding reconsideration motions and does not operate to
restrict the trial court’s discretion in determining whether a grant of reconsideration is
appropriate in a particular case.” Fetz Engineering v. Ecco Systems, 188 Mich App 362, 373; 471
NW2d 85 (1991), vacated on other grounds 439 Mich 977; 483 NW2d 619 (1992).
After reviewing Plaintiffs Motion for Reconsideration, the Court finds that it does not
establish a palpable error by the Court which, if corrected, would lead to a different outcome.
Instead, Plaintiffs Motion for Reconsideration presents the same issues that were previously
argued by Plaintiff, and rejected by the Court, either expressly or by implication. Accordingly,
Plaintiffs Motion for Reconsideration is DENIED.

DARNELL J/0CKSON (P34737)
CIRCUIT JUDGE

2

Additional material
from this filing is
available in the
Clerk's Office.

